   CONGRESSIONAL RESPONSE
          REPORT
Review of File Assembly Contracts at
  Office of Hearings and Appeals

             A-07-04-24076




              March 2004
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                            SOCIAL SECURITY
                                                                        Inspector General
                                     March 3, 2004


The Honorable E. Clay Shaw, Jr.
House of Representatives
Washington, D.C. 20515

Dear Mr. Shaw:

I want to thank you for your interest in the Social Security Administration’s Office of
Hearings and Appeals. In an October 14, 2003 letter, you requested that we perform
additional reviews of contractors that assemble case files for the Office of Hearings and
Appeals. The results of our review are discussed in the enclosed report.

My office is committed to eliminating fraud, waste, and abuse in the Social Security
Administration’s operations and programs. If you have any questions concerning this
matter, please call me or have your staff contact H. Douglas Cunningham, Executive
Assistant, at (202) 358-6319.

                                         Sincerely,




                                         James G. Huse, Jr.


Enclosure

cc:
Jo Anne B. Barnhart, Commissioner
Martin H. Gerry, Deputy Commissioner for Disability and Income Security Programs
A. Jacy Thurmond, Jr., Associate Commissioner for Hearings and Appeals




              SOCIAL SECURITY ADMINISTRATION       BALTIMORE MD 21235-0001
                                                                           Background
OBJECTIVES

The objectives of our review were to determine whether:

    • Office of Hearings and Appeals (OHA) file assembly contactors followed the terms
      of the contracts.

    • File assembly contractors had controls in place to safeguard sensitive information
      contained in case files.

    • OHA provided adequate oversight of file assembly contractor activities.
BACKGROUND

Within the Social Security Administration (SSA), OHA is responsible for conducting
hearings and issuing decisions as part of determining whether a person may receive
disability-related benefits. When a claimant requests a hearing, it is held before an
administrative law judge (ALJ). The ALJ conducts the hearing and issues a written
decision. Cases involving disability under the Disability Insurance (DI) program1 and
the Supplemental Security Income (SSI) program2 account for 90 percent of OHA's
work. The remainder consists of claims made under the Retirement and Survivors
Insurance program, Medicare, and non-disability claims under the SSI program. OHA’s
organizational structure includes 10 regional offices and 139 hearing offices.

Some OHA offices use contractors to prepare case files for review by ALJs. The
contractors organize medical documents chronologically, arrange documents in
appropriate sections of the case files, number documents, identify and retain duplicate
documents, and ensure all pertinent documents are appropriately labeled. As of
October 31, 2003, OHA had 74 file assembly contracts valued at approximately
$1.3 million.

During 2003, problems with OHA oversight of file assembly contracts in an OHA
regional office resulted in several media stories and a subsequent review by the Office
of the Inspector General. As a follow-up to that report and to determine whether similar
problems existed in other OHA offices, Congressman E. Clay Shaw, Jr. requested that
we review additional file assembly contracts in a letter dated October 14, 2003.


1
 Title II of the Social Security Act; § 223 of the Social Security Act, 42 USC 423; 20 CFR 404.1601
et seq.
2
 Title XVI of the Social Security Act; § 1631 et seq. of the Social Security Act, 42 USC 1383 et seq.
20 CFR 416.100 et seq.


Review of File Assembly Contracts at OHA (A-07-04-24076)                                                1
To fulfill Congressman Shaw’s request, we selected one file assembly contract in each
of SSA’s 10 regions, as shown in the following table:

                                                                                 Contract
       Region                                Hearing Office
                                                                                 Amount
        Boston       Boston, Massachusetts                                          $4,500

       New York      New York , New York (Northeastern Program Service Center)       7,248

      Philadelphia   Philadelphia, Pennsylvania (Philadelphia East)                 19,968

        Atlanta      Atlanta, Georgia                                               13,762

       Chicago       Cincinnati, Ohio                                               12,000

        Dallas       Dallas, Texas (Processing Center)                              54,210

      Kansas City    Springfield, Missouri                                          16,817

        Denver       Denver, Colorado                                                6,000

     San Francisco   San Jose, California                                           17,190

        Seattle      Portland, Oregon                                               18,672


See Appendix B for the scope and methodology of our review.




Review of File Assembly Contracts at OHA (A-07-04-24076)                                     2
                                                        Results of Review
With the exception of the file assembly contractor in the Boston region, the file assembly
contractors we reviewed followed the terms of their respective contracts and had
controls in place to safeguard sensitive information in case files. The file assembly
contractor in the Boston region, however, removed documents from case files, which
was not in accordance with the terms of the contract. Following removal from the case
files, the documents were placed in a recycle bin and supposedly shredded. According
to the contractor, only duplicate documents were removed from the case files.
However, we were unable to verify what documents were removed from the case files
and if these documents were only duplicates.

We also identified areas where OHA’s oversight of file assembly contractor activities
could be improved. Specifically,

•   Contractors did not receive consistent guidance from some OHA offices on case file
    assembly. Specifically, case file assembly training instructions provided by OHA to
    contractors were not consistent with the terms of the contracts regarding the removal
    of documents from case files.

•   Some OHA offices did not have controls in place to safeguard case files because
    contractors were allowed inappropriate and unsupervised access to case files.

We will issue a report to the Commissioner of Social Security with recommendations to
correct the problems in the case file assembly process found during this review.

CONTRACTOR IN THE BOSTON REGION REMOVED
DOCUMENTS FROM CASE FILES

The file assembly contractor in Boston inappropriately removed documents from case
files. Following removal from the case file, documents were placed in a recycle bin to
be shredded.3 This was contrary to the terms of the contract, which stated that
documents could not be discarded or permanently removed from the case files, and
training instructions, which stated that no documents could be thrown away. According
to the contractor, only duplicate documents were removed from case files and
shredded. This was also contrary to the terms of the contract, which stated that
duplicate documents were to be marked “duplicate” and retained in the case file.




3
  The Boston OHA hearing office used a separate contractor to shred documents. We could not verify
that the duplicate documents were in fact shredded.



Review of File Assembly Contracts at OHA (A-07-04-24076)                                             3
At the time of our review, approximately 24 case files had been assembled by this
contractor.4 Of these case files, we were unable to determine how many contained
documents that were discarded and whether the contractor only discarded duplicate
documents. The project officer for the file assembly contract stated that he was
unaware that the contractor removed documents from the case files. He further stated
that the contractor would be instructed not to remove documents from the case files.5

IMPROVEMENTS ARE NEEDED IN OHA’s OVERSIGHT
OF FILE ASSEMBLY CONTRACTORS

The training instructions given to contractors by some OHA offices were not consistent
with the terms of the contracts.6 Specifically,

      •   The written training instructions provided to the Philadelphia, Springfield, and
          Portland contractors stated that duplicate documents should be removed from
          the case files and discarded. However, the contracts stated that duplicate
          documents must be marked “duplicate” in the top right-hand corner and placed at
          the back of the section of the file in which it was found.7 We found that these
          three contractors followed the terms of their respective contracts.

      •   The written training instructions provided to the New York and Portland
          contractors specified that certain documents could be removed from the case
          files and discarded.8 However, the contracts stated that no documents were to
          be discarded. These two contractors followed the terms of their contracts.




4
 The contract was for 100 case files to be completed during the period of September 29, 2003 through
September 28, 2004.
5
  According to comments received from SSA’s Deputy Commissioner for Finance, Assessment and
Management, of the 24 case files assembled by this contractor, one received a fully favorable decision
and one is pending a fully favorable decision. The remaining 22 cases are pending a hearing. Also, SSA
will notify claimants that documents may have been removed from their case file and afforded the
opportunity to review their case file for completeness.
6
  The project officers for eight of the contracts provided us with the instructions they used to train the
contractors. Training given to the Atlanta and Denver contractors did not include written training
instructions.
7
    Neither the training instructions nor the contracts defined what constituted “duplicate” documents.
8
 According to the training instructions, contractors are allowed to discard blank Forms SSA-5002, Report
of Contact; carbon copies of Forms SSA-561, Request for Consideration; field office copies of Forms
HA-501, Request for Hearing; numident queries in most Title II claims; Forms SSA-1719Bs, SSI
Posteligibility Input; Forms SSA-827, Authorization for Source to Release Medical Information to SSA, if
dated 6 months earlier than the current date; and blank or carbon copies of disability determination
services development worksheets/case development records.



Review of File Assembly Contracts at OHA (A-07-04-24076)                                                     4
In addition, some OHA regions did not have controls in place to safeguard case files.
Specifically,

     •   In Cincinnati, Denver, San Jose, and Portland, the case files were stored in the
         file assembly location. According to a memo issued by the Associate
         Commissioner for Hearings and Appeals, contractors located in SSA space in
         non-government buildings should not have access to case files not currently in
         process. 9 The file assembly location in Cincinnati is in SSA space in a non-
         government building. Since the case files are stored in the file assembly
         location, contractors had inappropriate access to case files that were not
         currently in process. Also, according to the memo, contractors located in counsel
         rooms should only be given enough work for 1 day and must return all case files
         to the project officer at the end of the day. The San Jose and Portland file
         assembly locations were counsel rooms. Denver contractors were located in
         vacant SSA space in a government building.10 Since the case files were stored
         in the file assembly location, contractors had inappropriate access to more case
         files than could be worked in 1 day and case files were not returned to the project
         officer at the end of the work day.

     •   The Denver and Portland contractors were allowed unmonitored, immediate and
         continued access to case files. This occurred because case files were stored in
         the file assembly location where the doors were equipped with keyless code
         entry systems with access codes that were known to the contractors. According
         to the memo issued by the Associate Commissioner for Hearings and
         Appeals, contractors located in counsel rooms should obtain the key to the file
         assembly location from the receptionist and return the key once the door is
         unlocked. The use of keyless code entry systems for file assembly locations is
         not consistent with the Associate Commissioner’s guidance.




9
 Memo from A. Jacy Thurmond, Jr., Associate Commissioner for Hearings and Appeals, dated
November 21, 2003 to all regional and hearing office chief administrative law judges, regional
management officers, and hearing office directors.
10
  The memo from the Associate Commissioner gives different instructions for file assembly contractors
based on the file assembly location, either a counsel/IVT/hearing room, program service center, or SSA
space in a non-government building. The file assembly location in Denver does not fit into any of these
categories. Since the instructions for contractors in counsel/IVT/hearing rooms are the most restrictive,
we determined that the file assembly contractors in Denver are subject to the instructions for file assembly
contractors in counsel/IVT/hearing rooms.



Review of File Assembly Contracts at OHA (A-07-04-24076)                                                  5
     •   The access code provided to the Portland contractor for the file assembly
         location was the same as the access code for an Interactive Video Teletraining
         (IVT) room. The IVT room also had an unlocked door which leads into OHA
         office space. Therefore, the contractor could use the access code to enter the
         IVT room and then gain unsupervised access to case files in the hearing office.
         According to the Memorandum of Understanding governing file assembly
         contracts, contractors “will not be issued access codes/keys to the hearing
         office.”11




11
  Memorandum of Understanding Regarding Management’s Decision to Contract Out Pre-hearing Case
Folder Assembly Work, dated May 15, 2002, section A.(2)(b), Independent Contractors in the Hearing
Office.


Review of File Assembly Contracts at OHA (A-07-04-24076)                                         6
                                      Appendices
Appendix A – Acronyms

Appendix B – Scope and Methodology




Review of File Assembly Contracts at OHA (A-07-04-24076)
                                                             Appendix A

Acronyms
            ALJ             Administrative Law Judge

            DI              Disability Insurance

            IVT             Interactive Video Teletraining

            OHA             Office of Hearings and Appeals

            SSA             Social Security Administration

            SSI             Supplemental Security Income




Review of File Assembly Contracts at OHA (A-07-04-24076)
                                                                                 Appendix B

Scope and Methodology
We collected and analyzed information specific to the concerns raised by Congressman
E. Clay Shaw, Jr., regarding file assembly contracts at Offices of Hearings and
Appeals (OHA). To achieve our objectives, we:

      •   Reviewed the previously issued reports Operations at the Social Security
          Administration’s Milwaukee, Wisconsin, Office of Hearings and Appeals
          (A-13-03-23091) and Chicago Regional Office of Hearings and Appeals Claimant
          Medical Files (A-13-04-24045).

      •   Reviewed the Memorandum of Understanding Regarding Management’s
          Decision to Contract Out Pre-hearing Case Folder Assembly Work dated
          May 15, 2002; Program Operations Manual System DI 70005.005; the Social
          Security Acquisition Handbook, Security Requirements Clause; and the
          Memorandum from A. Jacy Thurmond, Jr., Associate Commissioner for Hearings
          and Appeals, dated November 21, 2003 to all regional and hearing office chief
          administrative law judges, regional management officers, and hearing office
          directors, to determine policies and procedures in place for file assembly
          contracts.

      •   Obtained a listing of all OHA file assembly contracts as of October 31, 2003, to
          identify contracts subject to our review. 1

      •   Selected for review the largest dollar valued file assembly contract within close
          proximity to an Office of Audit field office in each of the Social Security
          Administration’s (SSA) 10 regions. The contracts selected for review are listed
          on Page 2 of this report.

      •   Interviewed the contractor and project officer and observed the file assembly
          location for each contract to determine if the terms of the contract were being
          followed and adequate oversight was being provided.2




1
  Some of the contractors on the listing had not begun work on the contract and were excluded from being
selected for our review. File assembly contractors cannot begin working until they have cleared a pre-
screening determination by SSA’s Protective Security Suitability Program Officer. Due to a recent
backlog of processing background checks, some contractors had not begun working at the time of our
review.
2
    The interviews and observations were conducted in December 2003.



Review of File Assembly Contracts at OHA (A-07-04-24076)                                            B-1
The SSA operating component reviewed was the Office of Hearings and Appeals within
the Office of the Deputy Commissioner for Disability and Income Security Programs.
We performed our review at OHA file assembly locations in Boston, Massachusetts;
New York, New York; Philadelphia, Pennsylvania; Atlanta, Georgia; Cincinnati, Ohio;
Dallas, Texas; Springfield, Missouri; Denver, Colorado; San Jose, California; and
Portland, Oregon; and the Office of Audit in Kansas City, Missouri, from October 2003
through January 2004. We conducted our review in accordance with Quality Standards
for Inspections issued by the President’s Council on Integrity and Efficiency.




Review of File Assembly Contracts at OHA (A-07-04-24076)                          B-2
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                              Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                  Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
